State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005
BATON ROUGE
70804-9005

December 23, 2020

By electronic submission and U.S. mail
The Honorable Scott S. Harris
Clerk of Court, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re: Glenn Young v. Darrel Vannoy (20-5813)
Dear Mr. Harris:
This Court has requested a response from the Respondent, the State of Louisiana, in this matter. The brief in
opposition is currently due on January 6, 2021. However, the State requests a second extension of thirty (30)
days in which to file its brief in opposition due to a high volume of litigation and ongoing limitations on staff
due to COVID-19 workplace restrictions.
The new due date would be February 5, 20201. The undersigned has communicated with Petitioner, via legal
staff at Louisiana State Penitentiary, and he does not oppose this request.

JEFF LANDRY
ATTORNEY GENERAL

_________________________________
Elizabeth B. Murrill
Solicitor General
cc: Glenn Young

